                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-33                                    Office of Inspections                                       June 2013




                Inspection of the
    Florida Regional Center Fort Lauderdale,
                  United States




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                            1
Context                                                  2
Executive Direction                                      3
Policy and Program Implementation                        4
   Training                                              4
   Regional Administrative Support                       4
   Regional Position Classification Services             5
   Rover Program                                         5
Resource Management                                      7
   Staffing                                              7
   Internal Administrative Support                       8
Information Management                                  10
   Circuits to Auxiliary Buildings                      10
   SharePoint                                           10
   Information Management Officer’s Reviewing Officer   10
Management Controls                                     11
   Delegation of Authority                              11
   Regional Financial Management                        11
   Time and Attendance                                  11
   Telephone and BlackBerry Programs                    11
   Receiving Reports                                    12
   Disposition of Obsolete Equipment                    12
Security                                                13
List of Recommendations                                 15
List of Informal Recommendations                        17
Principal Officials                                     19
Abbreviations                                           20




                                     iii
                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Key Judgments
   The Florida Regional Center (FRC) in Fort Lauderdale provides quality training services for
    the Bureau of Western Hemisphere Affairs (WHA) and continues to expand these services
    through use of locally employed (LE) adjunct faculty.

   The FRC’s management units are overstaffed. Savings can be found through consolidating
    functions and improving oversight.

   The FRC provides financial management and human resources assistance to 18 WHA posts.
    Service memoranda of understanding with the posts lack quantifiable outcomes and
    monitoring of internal controls and thus do not allow effective evaluation of the FRC’s
    performance in these areas.

   The FRC’s regional job classification service needs to be evaluated to determine whether it is
    providing greater efficiency for the embassies and consulates in the region. If the service
    proves beneficial, the FRC should expand it.

   The FRC’s physical security program does not meet acceptable standards due to lack of
    oversight by the Bureau of Diplomatic Security (DS) and insufficient training for the
    principal post security officer.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the Office of Inspector General (OIG) team did not identify problems that need to
be corrected.

The inspection took place in Washington, DC, between December 15, 2012, and February 1,
2013, and in Fort Lauderdale, Florida, between February 26 and March 8, 2013. [Redacted]
                                                                                 (b) (6)
conducted the inspection.




                                         1
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Context
        The 2.3-acre FRC complex in Fort Lauderdale has 54,000 square feet of office space,
workshops, and warehousing. WHA has determined that it is cost effective to provide financial
management and human resources services to embassies in Central America and the Caribbean
regionally rather than place U.S. direct-hire officers at overseas posts. Three regional financial
management officers (RFMO) and 8 regional human resources officers (RHRO) provide services
for 18 posts. WHA also bases office management specialist (OMS) rovers and information
management officer (IMO) rovers in Fort Lauderdale. The Foreign Service Institute has assigned
one instructor to head the regional training center. The FRC, in turn, has worked with the
Foreign Service Institute to train and certify LE staff throughout WHA as adjunct faculty who
can teach courses to their colleagues, thereby extending the FRC’s training capability. The FRC
also hosts one officer with responsibility for classifying LE staff positions for embassies in the
region.

       The FRC facility houses regional support elements from the Office of Medical Services;
the Bureau of Information Resource Management (IRM); and DS, including Marine security
guard elements in support of WHA. Inspectors focused on the FRC elements funded by WHA.

        Customer service questionnaires for FRC were uniformly favorable. Employee surveys
reflected positive morale and job satisfaction for most employees. Executive directors of
serviced bureaus in the Department also gave these offices positive ratings.

         The FRC has a staff of 26 Foreign Service personnel, 5 Civil Service personnel, and 2
contractors. The director of FRC serves as the deputy executive director for WHA’s executive
office. In addition, the FRC calls upon the expertise of its 18-member executive corps of
experienced LE staff members throughout WHA. The FY 2012 budget for the FRC was
$1,754,749.

                       Foreign      Civil     Contract      U.S.      Total    Total Funding
                       Service     Service                  Local     Staff      FY 2012*
                        Direct                              Hire
                        Hire
        FRC
  Fort Lauderdale         26           5           2          0        33        $1,754,749

                          Table 1: FRC Fort Lauderdale Staffing Chart
                                  Source: FRC Fort Lauderdale




                                       2
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The FRC supports the regional activities of functional and regional bureaus. The director
is essentially the landlord for the FRC and provides security and administrative support for all
tenants. The FRC gets generally positive marks from all entities housed within its facility.

       The FRC’s rover program meets the OMS and IMO support needs for all of WHA. A
Foreign Service Institute instructor heads the FRC’s extensive training program for WHA. The
Bureau of African Affairs also uses the FRC’s training program on a space-available basis.

       Integrating the eight regional RHROs and three RFMOs into embassy management teams
requires considerable care. Both the director and deputy director have worked with the serviced
embassies and their staffs to promote a sense of service orientation. The embassies express
uniform satisfaction with that service.

       Recruitment of experienced human resources officers has proved difficult. The FRC and
WHA could do more to reach out to potential candidates for these positions. Currently, there are
two RHROs with little previous human resources experience, which undercuts the concept of
providing regional expertise.

         Regional personnel based in the United States are not accredited to their serviced
embassies, even though they are part of those missions’ staff and spend time working in those
missions. The RHROs and RFMOs deal with internal controls and LE staff. Without diplomatic
status, they are vulnerable to claims made against them while undertaking their regional duties.
Because they are acting in the capacity of technical staff assigned to the countries they serve,
there is valid justification for their inclusion on the embassy’s diplomatic list per 2 Foreign
Affairs Manual (FAM) 221.2.

Recommendation 1: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources and the Office of the Legal Adviser, should accredit regional
personnel to their serviced countries. (Action: WHA, in coordination with DGHR and L)




                                       3
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Training

       The FRC conducts more LE staff training than either of the Department’s other two
regional training centers in Frankfurt and Bangkok. By using adjunct faculty, the FRC went from
teaching 26 courses for 400 employees in FY 2011 to teaching 96 courses for 1,500 employees
in FY 2012.

       The FRC uses both level one and two evaluation reports for its course offerings; for
example, an evaluation the student completes in the classroom during the course. Per a
Government Accountability Office requirement,1 the Foreign Service Institute is beginning an
additional level of evaluation for its courses. Use of the third level of evaluation, and
involvement of the trainee’s supervisor in the evaluations, would provide better assessments of
FRC course offerings.

Recommendation 2: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to introduce level three evaluation reports for all course offerings. (Action:
WHA)

Regional Administrative Support

         RHROs and RFMOs act as members of the management team at the embassies they
support. The memoranda of understanding (MOU) between the FRC and the missions lack
service standards and quantifiable goals. For example, RFMO MOUs state that RFMOs should
―conduct spot checks of vouchers, obligations and petty cash transactions,‖ and ―certify
vouchers…during each post visit.‖ Although RFMOs do perform some of these functions, views
on the amount of service required varied widely by RFMO. One RFMO did not believe
certifying or auditing payments was an integral part of his job, whereas another made a concerted
effort to audit 40–50 payments each visit. Serviced missions have relatively high levels of
endemic corruption, and they are often staffed by inexperienced management officers with no
prior financial management experience. It is important that RFMOs spend at least a half day
during each visit auditing and certifying vouchers. Furthermore, trip reports do not reflect all
requirements enumerated in the MOUs and often list repetitive actions without describing
progress toward goals. Without metrics to gauge performance, the FRC cannot adequately
prioritize its workload, plan its staffing, or evaluate the regional staff’s performance.

Recommendation 3: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to establish a separate memorandum of understanding for each service provider
that includes measurable outcomes to be evaluated and renewed jointly each year. (Action:
WHA)

          Informal Recommendation 1: The Bureau of Western Hemisphere Affairs should
          require the Florida Regional Center to issue trip report guidelines that correspond to
          memoranda of understanding.

1
    Report No. GAO-11-214, Recommendation 4, p. 67.
                                           4
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Supervision

        The supervisory RHRO also supports two posts, leaving insufficient time for her to
manage overall human resources regional support and provide professional oversight. As a
result, RHRO support is not uniform. Given the lack of experience of two of the eight RHROs,
more supervision is essential.

       Informal Recommendation 2: The Bureau of Western Hemisphere Affairs should
       require the Florida Regional Center to reduce the supervisory regional human resources
       officer’s support responsibilities to one mission to allow greater management and
       mentoring of regional human resources officers.

        RFMOs are supervised by the FRC deputy director, a management generalist. Many of
the embassies that the FRC supports have first-tour management officers and lack experienced
local financial management staff. It is imperative that the RFMOs provide quality service and
perform internal control reviews during each visit. Assigning one of the RFMOs as the
supervisory RFMO would provide experienced oversight and supervision and enhance RFMO
effectiveness.

       Informal Recommendation 3: The Bureau of Western Hemisphere Affairs should
       require the Florida Regional Center to designate one of its regional financial management
       officer positions as a supervisory position.

Regional Position Classification Services

        In June 2012, a temporary duty officer started providing classification services of LE
staff positions. At the time of the inspection, she had completed 56 job evaluations for various
missions throughout WHA. The RHROs are unanimously in favor of expanding this offshore
support. Professional oversight of the LE staff position evaluation system represents sound
management. However, the FRC has yet to develop metrics to determine the benefit of
expanding regional job evaluation services beyond its current level. Based on the results
achieved by the Regional Support Center Frankfurt, Germany, it would be prudent to consider
expanding this service to the region.

Recommendation 4: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to perform a cost-benefit analysis of the job evaluation services it provided in
2012 and submit it to the Bureau of Western Hemisphere Affairs and the Bureau of Human
Resources’ Office of Overseas Employment. (Action: WHA)

Rover Program

        OMS and IMO rovers provide temporary staffing coverage at WHA missions. For the
most part, rovers spend over 90 percent of their assignments on the road and literally live out of a
suitcase. The employees normally place their belongings in storage during their tour of duty with
the FRC. WHA reimburses only $1,000 per rover per year for storage costs. The Office of
Transportation Management indicates that the $1,000 is simply a placeholder in the orders and
does not reflect the allowance amount. A review of the actual costs put the rovers’ average cost

                                       5
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

of storing effects at more than $3,100. These rovers provide a valuable service and deserve to
receive fair compensation for their expenses.

Recommendation 5: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should adjust the allowance for office management specialist and
information management officer rovers to cover the cost of storing their household effects.
(Action: WHA, in coordination with DGHR)




                                       6
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Resource Management
Staffing

       Four FRC management positions are underutilized, and workload is not distributed
properly within the FRC. Better coordination of tenant agencies’ resources would streamline
FRC operations and provide oversight of internal controls.

        One management officer is not fully employed. This officer is responsible for organizing
regional conferences and specialized assistance visits, conducting limited procurement for FRC
needs, and supervising warehouse staff. The number of regional conferences the FRC organizes
has diminished to less than one per year, and specialized assistance visits have dwindled to a
handful each year. Procurement duties could be performed by the current OMS and overseen by
the deputy director. The deputy director could also supervise the warehouse staff, thus
eliminating the need for the management officer position.

Recommendation 6: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should eliminate management officer position S6558601. (Action:
WHA, in coordination with DGHR)

        The FRC warehouse operation is overstaffed. A part-time Civil Service logistician and a
third-party contractor share responsibility for the FRC’s expendable supplies, furniture, office
equipment, computer equipment, motor vehicles, inventory control, and mailroom operations.
Other FRC tenants also use the warehouse. The Marine security guard detachment, engineering
services center, regional information management center, and diplomatic courier operations all
manage their own areas of the facility. The FRC thus manages less than 30 percent of the
warehouse space.

        WHA MOUs with DS and IRM govern services the FRC provides its tenants.
Negotiating a modification of the MOUs, adding a tenant responsibility to assist with tasks such
as unloading delivery trucks and moving furniture, and creating a tenant council for warehouse
operations would build collaboration and improve efficiency. Increasing the hours of the
warehouse Civil Service employee from 32 to 40 hours, along with the above steps, would also
allow the FRC to eliminate one logistician position, resulting in cost savings.

Recommendation 7: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureaus of Information Resource Management and Diplomatic Security, should update the
memoranda of understanding with tenant agencies to include the provision of limited logistical
support to the Florida Regional Center warehouse. (Action: WHA, in coordination with IRM
and DS)

       Informal Recommendation 4: The Bureau of Western Hemisphere Affairs should
       require the Florida Regional Center to establish a council of all its tenants to oversee the
       regional warehouse.




                                       7
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 8: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should require the Florida Regional Center to eliminate the
contract for the warehouse logistician position. (Action: WHA, in coordination with DGHR)

Recommendation 9: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should change the part-time Civil Service warehouse logistician
position (D0121500) to full time. (Action: WHA, in coordination with DGHR)

         The information management (IM) section is overstaffed. Its six U.S. direct-hire positions
include an information programs officer who supports Bermuda and Curacao with periodic
visits. The number of FRC OpenNet users requiring continuous support is 135. Five of the six
IM positions support those users. A review of posts with similar numbers of OpenNet users
indicates that, on average, they have only four service providers—two U.S. direct-hire and two
LE staff members. Unlike the FRC, those posts also have responsibilities for radio, pouch, and
classified programs. Overstaffing creates a burden on resources and can lead to job
dissatisfaction and poor morale.

Recommendation 10: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should eliminate two information management positions at the
Florida Regional Center. (Action: WHA, in coordination with DGHR)

       Though one of the three RFMOs has been absent for several months, workload for the
remaining two employees does not appear excessive. One of the three RFMO positions may no
longer be needed due to the decreasing workload at serviced missions that now outsource
vouchers.

       Informal Recommendation 5: The Bureau of Western Hemisphere Affairs should
       require the Florida Regional Center to assess its workload to determine the need for the
       third regional financial management officer position.

Internal Administrative Support

Orientation

        The FRC lacks a central point of contact to facilitate the transfer of new hires by
providing information on frequently asked questions about where to obtain housing or how to
transfer an employee’s driver’s license. Employee productivity has suffered as a result.

        There is also no enforcement of the in- and out-processing system for employees of the
FRC. Employees of tenant agencies frequently depart without completing the checkout
procedures. A standard process, such as not issuing identification badges until an employee has
completed check-in, or holding the employee’s parent office responsible for certifying that the
employee has checked out properly before permanent departure, would reduce confusion among
tenant agencies and improve morale and internal controls. Without such procedures, accounting
for employees and ensuring proper access to the facility are not possible. A comprehensive
program would include sponsorship of new employees; orientation to FRC professional
standards, work goals, travel commitments, reporting requirements, mission, and vision; and an
introduction to the larger FRC facility and its tenants.
                                       8
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Recommendation 11: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to develop a program for in- and out-processing of employees. (Action: WHA)

Service Standards

       Employees are unsure about how to obtain computer and telephone services and about
what services they can reasonably expect. In the absence of clear guidance, employees seek out
support from anyone willing to assist. This practice undermines the support services arrangement
and results in conflicting support standards.

       Informal Recommendation 6: The Bureau of Western Hemisphere Affairs should
       require the Florida Regional Center to establish a system to provide information
       technology, expendable supply, and procurement services, including service standards.




                                      9
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Information Management
        The IM section provides information technology support services for all FRC tenants as
well as some support to U.S. Government offices in Miami.

Circuits to Auxiliary Buildings

        The quality and speed of three off-site annex circuits are less than optimal, causing end-
user delays. The FRC has been working with IRM and WHA on funding issues for circuit
improvements for over a year. Without a reliable, high-speed circuit, end users cannot perform
their jobs efficiently.

       Informal Recommendation 7: The Bureau of Western Hemisphere Affairs should
       require the Florida Regional Center to provide reliable, high-speed circuits for their off-
       site customers.

SharePoint

        The FRC SharePoint site lacks quality and important content. Several regional support
personnel are responsible for updating individual areas of the site; however, overall coordination
and responsibility for the Web site are not defined clearly. An OMS was responsible for the site
until her departure. The IM employee now in charge of SharePoint has had no formal training
and departs this summer. It is important for a regional service provider such as the FRC to have
an accurate and effective Web site for its clients and employees.

       Informal Recommendation 8: The Bureau of Western Hemisphere Affairs should
       require the Florida Regional Center to formally designate a trained employee to manage
       its SharePoint site.

Information Management Officer’s Reviewing Officer

        The senior IMO is rated by the FRC director but has no designated reviewing officer. The
policy on assigning reviewing officers is detailed in 3 Foreign Affairs Handbook (FAH)-1 H-
2813.1. The rated officer may be disadvantaged by not having a second input for his annual
evaluation report.

Recommendation 12: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to assign a reviewing officer for the senior information management officer.
(Action: WHA)




                                       10
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Management Controls
Delegation of Authority

        The FRC does not have a delegation of authority document that identifies employee
responsibilities. Without this reference document, mandatory duties and oversight of key
functions can be neglected. A delegation of authority memorandum covers Equal Employment
Opportunity and Federal Women’s programs, internal controls, security officer duties, receiving
officer duties, and time and attendance.

Recommendation 13: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to publish a delegation of authority memorandum. (Action: WHA)

Regional Financial Management

        RFMOs are not consistently auditing vouchers certified by LE staff in serviced missions.
According to 4 FAH-3 H-065.2-2, the financial management or management officer must
periodically review vouchers certified by LE staff. The regulation suggests that the officer
review at least 10 percent of all vouchers certified by LE staff and requires post to keep the
results for 3 years. None of the RFMO trip reports contain a list of the vouchers audited. Failure
to conduct audits presents a serious management vulnerability in a region with high fraud
activity.

Recommendation 14: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to implement a policy requiring that all regional financial management officer
trip reports include the number of vouchers audited and certified, voucher dates, and any
identified problems. (Action: WHA)

Time and Attendance

       The various work schedules authorized for FRC employees reflect an almost
individualized statement of conditions of work. When regional travel is added to the various
schedules, oversight of employees becomes problematic. As a result, there is lack of
accountability for employees’ time and attendance.

Recommendation 15: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to review the conditions of work for its employees to improve oversight.
(Action: WHA)

       Informal Recommendation 9: The Bureau of Western Hemisphere Affairs should
       require the Florida Regional Center to maintain a centralized calendar on its SharePoint
       site with all travel and leave for all employees.

Telephone and BlackBerry Programs

      There are at least four different types of contracts and payment plans in the FRC
BlackBerry program, which causes confusion within the accounting section as well as among

                                       11
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

users. Without consistency in procurement and billing, the U.S. Government risks delinquent
charges and overpayments. Consolidating plans would provide an opportunity for cost savings.

Recommendation 16: The Bureau of Information Resource Management, in coordination with
the Bureau of Western Hemisphere Affairs, should bring the Florida Regional Center’s
BlackBerry program under one plan with the best pricing structure for center needs. (Action:
IRM, in coordination with WHA)

        The FRC does not have one simplified BlackBerry standard operating procedure. Without
procedures spelling out the responsibilities and authorized practices, users are likely to accrue
high costs. FRC employees have outstanding BlackBerry bills, one of which exceeds $5,000.
Three bills are being disputed, with payment lagging by several months. Per 4 FAM 492.1, post
is responsible for identifying debts and undertaking initial collection efforts, and 4 FAM 493.1
details collection actions. Without a consistent collection procedure, the FRC risks incurring
unauthorized costs.

       Informal Recommendation 10: The Bureau of Western Hemisphere Affairs should
       require the Florida Regional Center to issue a notice outlining usage and billing
       responsibilities for BlackBerry users.

Recommendation 17: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to implement a policy requiring all employees to pay delinquent personal bills
within 30 days of invoice. (Action: WHA)

Receiving Reports

        The FRC prepares receiving reports only after it receives invoices rather than when it
receives items. According to 14 FAM 413.2 and 413.3, receiving reports must be completed
when equipment or services are received. Failure to provide prompt receiving reports risks errors
in deliveries in a shared facility.

       Informal Recommendation 11: The Bureau of Western Hemisphere Affairs should
       require the Florida Regional Center to designate receiving officials and direct those
       officials to provide receiving reports to the accounting technician upon receipt of items.

Disposition of Obsolete Equipment

       The warehouse contains dozens of old laptops and miscellaneous computer equipment.
Although this equipment has been correctly removed from the IM inventory and signed over to
the warehouse, the laptops have been awaiting disposal for over a year. Proper and timely
disposal of equipment is an essential element of property management.

       Informal Recommendation 12: The Bureau of Western Hemisphere Affairs should
       require the Florida Regional Center to implement a plan for the proper disposal of
       obsolete material, giving mission personnel advance notice of the proposed schedule and
       the items slated for disposal.


                                       12
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Security
       [Redacted] (b) (5)



       Many security notices and directives are out of date, [Redacted] (b) (5)
                        The FRC security program would benefit from a comprehensive review
by the bureau security officer.

Recommendation 18: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Diplomatic Security, should review the security program and procedures at the Florida
Regional Center. (Action: WHA, in coordination with DS)

        The principal unit security officer receives a 4-hour class on security management,
compared to the 1 week of training that post security officers at missions overseas receive. The
limited security training in the unit security officer course does not provide the officer at the FRC
with sufficient knowledge to manage the complex security program. Security of this facility is
important not only for FRC staff but also for their tenant agencies.

       [Redacted] (b) (5)



                   According to the security incident logbook in the security office, FRC has not
had a recorded security incident since 2005, but this may be due to insufficient security
oversight. The principal unit security officer began implementing required security practices
during the inspection.

Recommendation 19: The Bureau of Diplomatic Security, in coordination with the Bureau of
Western Hemisphere Affairs, should arrange for the unit security officer for the Florida Regional
Center to attend the 1-week post security officer course. (Action: DS, in coordination with
WHA)

       [Redacted] (b) (5)




       [Redacted] (b) (5)




                                         13
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 20: [Redacted] (b) (5)




      [Redacted] (b) (5)




Recommendation 21: [Redacted] (b) (5)




                                        14
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources and the Office of the Legal Adviser, should accredit regional
personnel to their serviced countries. (Action: WHA, in coordination with DGHR and L)

Recommendation 2: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to introduce level three evaluation reports for all course offerings. (Action:
WHA)

Recommendation 3: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to establish a separate memorandum of understanding for each service provider
that includes measurable outcomes to be evaluated and renewed jointly each year. (Action:
WHA)

Recommendation 4: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to perform a cost-benefit analysis of the job evaluation services it provided in
2012 and submit it to the Bureau of Western Hemisphere Affairs and the Bureau of Human
Resources’ Office of Overseas Employment. (Action: WHA)

Recommendation 5: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should adjust the allowance for office management specialist and
information management officer rovers to cover the cost of storing their household effects.
(Action: WHA, in coordination with DGHR)

Recommendation 6: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should eliminate management officer position S6558601. (Action:
WHA, in coordination with DGHR)

Recommendation 7: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureaus of Information Resource Management and Diplomatic Security, should update the
memoranda of understanding with tenant agencies to include the provision of limited logistical
support to the Florida Regional Center warehouse. (Action: WHA, in coordination with IRM
and DS)

Recommendation 8: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should require the Florida Regional Center to eliminate the
contract for the warehouse logistician position. (Action: WHA, in coordination with DGHR)

Recommendation 9: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should change the part-time Civil Service warehouse logistician
position (D0121500) to full time. (Action: WHA, in coordination with DGHR)

Recommendation 10: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should eliminate two information management positions at the
Florida Regional Center. (Action: WHA, in coordination with DGHR)

Recommendation 11: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to develop a program for in- and out-processing of employees. (Action: WHA)
                                              15
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 12: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to assign a reviewing officer for the senior information management officer.
(Action: WHA)

Recommendation 13: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to publish a delegation of authority memorandum. (Action: WHA)

Recommendation 14: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to implement a policy requiring that all regional financial management officer
trip reports include the number of vouchers audited and certified, voucher dates, and any
identified problems. (Action: WHA)

Recommendation 15: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to review the conditions of work for its employees to improve oversight.
(Action: WHA)

Recommendation 16: The Bureau of Information Resource Management, in coordination with
the Bureau of Western Hemisphere Affairs, should bring the Florida Regional Center’s
BlackBerry program under one plan with the best pricing structure for center needs. (Action:
IRM, in coordination with WHA)

Recommendation 17: The Bureau of Western Hemisphere Affairs should require the Florida
Regional Center to implement a policy requiring all employees to pay delinquent personal bills
within 30 days of invoice. (Action: WHA)

Recommendation 18: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Diplomatic Security, should review the security program and procedures at the Florida
Regional Center. (Action: WHA, in coordination with DS)

Recommendation 19: The Bureau of Diplomatic Security, in coordination with the Bureau of
Western Hemisphere Affairs, should arrange for the unit security officer for the Florida Regional
Center to attend the 1-week post security officer course. (Action: DS, in coordination with
WHA)

Recommendation 20: [Redacted] (b) (5)




Recommendation 21: [Redacted] (b) (5)




                                       16
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations

Informal Recommendation 1: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to issue trip report guidelines that correspond to memoranda of
understanding.

Informal Recommendation 2: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to reduce the supervisory regional human resources officer’s support
responsibilities to one mission to allow greater management and mentoring of regional human
resources officers.

Informal Recommendation 3: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to designate one of its regional financial management officer positions
as a supervisory position.

Informal Recommendation 4: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to establish a council of all its tenants to oversee the regional
warehouse.

Informal Recommendation 5: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to assess its workload to determine the need for the third regional
financial management officer position.

Informal Recommendation 6: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to establish a system to provide information technology, expendable
supply, and procurement services, including service standards.

Informal Recommendation 7: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to provide reliable, high-speed circuits for their off-site customers.

Informal Recommendation 8: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to formally designate a trained employee to manage its SharePoint site.

Informal Recommendation 9: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to maintain a centralized calendar on its SharePoint site with all travel
and leave for all employees.

Informal Recommendation 10: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to issue a notice outlining usage and billing responsibilities for
BlackBerry users.



                                       17
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 11: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to designate receiving officials and direct those officials to provide
receiving reports to the accounting technician upon receipt of items.

Informal Recommendation 12: The Bureau of Western Hemisphere Affairs should require the
Florida Regional Center to implement a plan for the proper disposal of obsolete material, giving
mission personnel advance notice of the proposed schedule and the items slated for disposal.




                                       18
                          SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                   Name             Arrival Date
Director                           Ellen Engels          07/2010
Deputy Director                    Randall Budden        08/2010
Chiefs of Sections:
   Management                      Mary Oliver          09/2011
   Human Resources                 Carolyn Creevy       09/2012
   Information Management          Michael Adams        05/2012
   Training                        Ronald Blanton       08/2012




                                   19
                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
Department        Department of State

DS                Bureau of Diplomatic Security

FAH               Foreign Affairs Handbook

FAM               Foreign Affairs Manual

FRC               Florida Regional Center

IM                Information management

IMO               Information management officer

IRM               Bureau of Information Resource Management

LE                Locally employed (staff)

MOU               Memorandum of understanding

OIG               Office of Inspector General

OMS               Office management specialist

RFMO              Regional financial management officer

RHRO              Regional human resources officer

WHA               Bureau of Western Hemisphere Affairs




                             20
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
